March 24, 2020
VIA HAND DELIVERY
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Kelsey v. Ernst, Case No. 19-682
Dear Mr. Harris,
Petitioner’s petition in the above-captioned case was docketed on November 26, 2019.
The Court called for a response on January 13, 2020, and Respondents filed their brief in
opposition on March 13, 2020. The first distribution date after the 14-day period under Supreme
Court Rule 15.5 appears to be April 1, 2020.
Pursuant to the Court’s Order of March 19, 2020, addressing the extension of deadlines,
Petitioner respectfully requests that this Court delay the distribution of this petition for writ of
certiorari until the April 28, 2020 distribution date. Petitioner requires the additional time for two
reasons, both caused by the COVID pandemic. First, counsel has experienced symptoms that
may be COVID related, and is attempting to rest as much as possible in order to prevent his
symptoms from worsening. Second, due to work disruptions and the closure of elementary
schools in Chicago, counsel has been limited in his ability to review the case and prepare the
reply. Petitioner has not previously sought an extension of time from this Court.
Respondent does not oppose this request.
Sincerely,

David M. Shapiro
Counsel of Record
cc: Brandy Rae Johnson, Counsel for Respondent

